No. 20-587

In the Gupreme Court o the United Neates

 

HOPE ANGELIC WHITE, individually and as personal representative of the
estate of Myron Pollard,

PETITIONERS
v.
UNITED STATES OF AMERICA and BERNARD HANSEN,
RESPONDENTS

CERTIFICATION OF RULE 33.2

 

As required by Supreme Court Rule 33.2, I hereby certify that
PETITIONERS’ REPLY TO BRIEF FOR THE RESPONDENTS IN
OPPOSITION TO PETITION FOR A WRIT OF CERTIORARI contains 2,445
words, excluding parts of the document that are exempted by Supreme Court
Rule, and consists of 10 pages. I declare under penalty of perjury that the

foregoing is true and correct this 11 day of March, 2021.

Respectfully submitted,

4s/ Howard A. Shalowitz
Howard A. Shalowitz
Attorney for Petitioners

P.O. Box 410404

St. Louis, MO 63141-0404
Tel: (314) 277-9977

Fax: (314) 392-9912

E-Mail: howard@shalowitz.org

 

 
